CERTIFICATE OF SERVICE AFFIDAVIT
Comes now Roger Brown, under the pains and penalty of perjury, being first duly
sworn, under oath, and states as follows:
I am the Petitioner in the United States Supreme Court seeking a Petition for Writ of
Certiorari to the US Supreme Court,, Roger Brown v. Citizens Property
Insurance Corporation, coming from USCA11 Case: 20-11607-BB.
I HEREBY CERTIFY that a true and correct copy of this Petition, along with an
Appendix, has been conveyed via the Internet to the opposing attorney of record in this
Case. Said documents were transferred to the following eMail addresses:
Maureen Pearcy [Attorney for Citizens Property Insurance Corporation]
Paul R. Pearcy, P.A., 7700 N. Kendall Drive, Suite 412
Miami, Florida 33156, Office: 305-663-8850, Cell: 305-742-7405
maureen@pearcylawyer.com; service@pearcylawyer.com
Pursuant to Supreme Court Rule 29.4.(c) to:
Ashley Moody, Florida Attorney General
oag.civil.eserve@myfloridalegal.com
Affiant further sayeth naught. Dated this 6th day of August, 2021.
BW
C
Roger B/ownJ, Pro Se Petitioner
r b 12 7. le gal@gmail .com
c/o PO Box 566
Dunedin, Florida 34697-0566
956-408-9167
STATE OF FLORIDA
COUNTY OF PINELLAS
The foregoing Affidavit was subscribed, sworn to, and acknowledged before me by Roger Brown,
who appeared personally as of the above stated date. Identification was verified by his valid Texas
Drivers License and his valid U.S. Passport.
My Commission Expires:

By:
Notary Public

i?/'V A°u
<sSWAs<,

RiShi JethWa
notary public
rs.
.
5 STATE OF FLORIDA
Comm# GG365633
s'\cTW‘ Expires 8/14/2023

<?/

ft

